STATE OF ILLINOIS
SUPREME COURT
At a Term of the Supreme Court, begun and held in Springfield, on Monday, the 14th day of
September, 2020.
Present: Anne M. Burke, Chief Justice
Justice Thomas L. Kilbride
Justice Rita B. Garman
Justice Lloyd A. Karmeier
Justice Mary Jane Theis
Justice P. Scott Neville, Jr.
Justice Michael J. Burke
On the 30th day of September, 2020, the Supreme Court entered the following judgment:
No. 126027
People State of Illinois,
Respondent
v.
Marlon Thomas

Petition for Leave to
Appeal from
Appellate Court
First District
1-19-1727
10CR11925

Petitioner
The Court having considered the Petition for leave to appeal and being fully advised of the
premises, the Petition for leave to appeal is DENIED.

As Clerk of the Supreme Court of the State of Illinois and keeper of the records, files and
Seal thereof, I certify that the foregoing is a true copy of the final order entered in this case.
IN WITNESS WHEREOF, I have hereunto
subscribed my name and affixed the seal
of said Court, this 4th day of November,
2020.

f/$
Cfl
fll •

^ '• ili*

I

STATE OF ILLINOIS
AUG. 26,1818

,*

Clerk,
Supreme Court of the State of Illinois

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312)793-1332
TDD: (312) 793-6185

September 30, 2020
In re:

People State of Illinois, respondent, v. Marlon Thomas, petitioner.
Leave to appeal, Appellate Court, First District.

126027
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11 /04/2020.

Very truly yours,

Clerk of the Supreme Court

i

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
CAROLYN TAFT GROSBOLL
Clerk of the Court

October 28, 2020

(217)782-2035
TDD: (217) 524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Marlon Thomas
ELGIN MENTAL HEALTH CENTER
750 South State Street
Eligin, IL 60123
In re:

People v. Thomas
126027

Today the following order was entered in the captioned case:

.t

.*

■

3
Motion by Petitioner, pro se, for leave to file a motion for reconsideration of
the order denying petition for leave to appeal. Denied.
i*

Order entered by the Court.
This Court's mandate shall issue in due course to the Appellate Court, First
District.
Very truly yours

dM
Clerk of the Supreme Court
cc:

Appellate Court, First District
Attorney General of Illinois - Criminal Division
Cook County State's Attorney, Criminal Division

■~a

. NGTSCE
*fh® text of this order may
l>e changed or corrected
ttrior to the time for filing of
® Petition for Rehearing or
the disposition of the same.

No. 1-19-1727
Order filed April 28, 2020.
Second Division

IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

)
)
)

THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,

Appeal from the
Circuit Court of
Cook County.

)

‘

v.

)

No. 10 CR 11925

)

)
)
)

MARLON THOMAS,
Defendant-Appellant.

The Honorable
Earl B. Hoffenberg,
Judge Presiding.

JUSTICE LAVIN delivered the judgment of the court.
Presiding Justice Fitzgerald Smith and Justice Coghlan concurred in the judgment.
SUMMARY ORDER

Hi

Following a bench trial on March 1,2012, defendant Marlon Thomas was found not guilty

of robbery (720 ILCS 5/18-1(a) (West 2010)) by reason of insanity. He was committed to the
custody of the Department of Human Services (DFIS) with a maximum period of commitment
ending June 18, 2025. Defendant subsequently filed several unsuccessful pro se petitions for
discharge. See People v. Thomas, 2015 IL App (1st) 143244-U; People v. Thomas, 2017 IL App
(1st) 163287-U.

* -

No. 1-19-1727

H2:

In January 2019, defendant filed a pro se petition for transfer to a non-secure sfetting,

conditional release, or discharge pursuant to section 5-2-4(e) of the Unified Code of Corrections
(730 ILCS 5/5-2-4(e) (West 201 8)).

13

■

On March 13, 2019, the trial court ordered defendant evaluated by Forensic Clinical

Services. Dr. Kristin Schoeribach examined defendant on April 16, 2019. In a letter to the court
dated that day, Dr. Schoenbach concluded that defendant vvas not currently suitable for transfer to
a non-secure setting, discharge, or conditional discharge because he did not demonstrate the
■ psychological stability required for “-Such a significant change” to his treatment plan."

14

At a June 26, 2019 hearing, defendant’s appointed counsel asked to withdraw the petition

for transfer and made an oral request for on-grounds facility pass privileges 'Without supervision at
the discretion ofDITS. The court entered an agreed order authorizing DHS’to issue pass privileges
allowing defendant-to be on facility grounds without supervision at its discretioh. The order further
stated that the Elgin Mental Health Center; through Dr. Tasheen Mohammed, recommended that
defendant be allowed on-grounds pass privileges. The case was continued for 90 days.

15

On July 15, 2019, defendant filed a pro se notice of appeal. The office of the Cook County

Public Defender was appointed to represent him.

16

’Appointed counsel has filed a motion for leave to withdraw as appellate counsel, citing

Pennsylvania v. Finley, 481 U.S. 551 (1987). Counsel has submitted a memorandum in support of
the motion, stating that she has reviewed the record and concluded that an appeal would be without
arguable merit. Counsel notes that because defendant, through counsel, voluntarily withdrew his
petition for discharge, there was no determination on the merits and no final appealable order. See
People v. Vari, 2016 IL App (3d) 140278, U 9 (quoting People ex rel. Scott v. Silverstein, 87 111.

-2 -

- -A

No. 1-19-1727

2d. 167, 171 (1981) (“ ‘A Final judgment has also been defined as a judgment that ‘determines the
litigation on the merits so that, if affirmed, the .only thing remaining is to proceed with the
execution of the judgment.’ ”)). This court therefore lacks jurisdiction and defendant’s appeal must
be dismissed. See, e.g., EMC Mortgage Corp. v. Kemp, 2012 IL 1 13419, H 9 (an appellate court’s
. jurisdiction is limited tp appeals from final judgments). Copies of the motion and memorandum
were sent to defendant, who was advised that he may submit any points in support of his appeal.
Defendant has filed four responses.

V

In his responses, defendant contends that he was, denied the effective assistance of appellate

counsel because she took more than 90 days to. “collect” his file and determined that his case had
no merit. He further contends that he should not be “incarcerated” because he was found not guilty
of robbery by reason of insanity and challenges the length,of the. sentence Tip: received. . .

i

After carefully reviewing the record in.light,pf counsel’s memorandum and defendant’s
responses, we agree with counsel’s conclusion that this appeal must be dismissed. See People v.
Shinaul, 2017 IL 120162, ^ 10 (“an order which leaves the cause still pending and aindecided is
not a final order for purposes of appeal”). We also grant the motion of the office,pf the Public
Defender of Cook County for leave withdraw.

19

........

This order is entered in accordance with Illinois Supreme Court Rule 23(c)(1) (eff. Apr. 1,

2018).
^| 10

Affirmed.

-3 -

